                 Department of Veterans Affairs
                 Office of Inspector General



                   Office of Healthcare Inspections

Report No. 13-03089-104



             Healthcare Inspection 


    Unexpected Patient Death in a 

     Substance Abuse Residential 

   Rehabilitation Treatment Program 

     Miami VA Healthcare System 

             Miami, Florida 





March 27, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL



                                  Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to the unexpected death of a patient in the substance abuse
residential rehabilitation treatment program (SARRTP) at the Miami VA Medical Center
(the facility), Miami, FL. Autopsy results indicated that the death was a result of acute
cocaine and heroin toxicity.

We found that the security surveillance camera for the SARRTP was not operational at
the time of the patient’s death and remained non-operational at the time of our site visit
3 months later. Some SARRTP staff members, including the Nurse Manager, were
unaware that the camera was not working. The facility did not make alternative
arrangements to monitor patients in the absence of an operational camera.

We found that evening, night, and weekend SARRTP staff often remained in a back
room in the SARRTP unit with an extremely limited view of the unit and no view of the
unit’s entrance/exits.

VHA mandates that a staff member be physically present on the SARRTP unit at all
times. We found staff were not present at all times as required.

Staff were not consistent in searching patients for contraband and did not monitor
patient whereabouts as required.

We reviewed the electronic health records of other patients in the SARRTP at the time
of the patient’s death to determine the frequency of illicit substance use among program
participants. Excluding patients with potential false positive results, we found that 7 of
21 patients had a positive urine drug screen or breathalyzer test while in the SARRTP.

We found that the methods used for monitoring SARRTP patients for illicit drug use
could be strengthened. We concluded that the facility’s system of surveillance and staff
supervision of patients did not adhere to VHA policy. We recommended that the
System Director ensure adequate surveillance and monitoring of patients and staff
supervision on the SARRTP unit as required. We also recommended that the facility
implement consistent contraband search and documentation processes.

Comments
The Veterans Integrated Service Network and System Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 8–12 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.


                                                               JOHN D. DAIGH, JR., M.D.
                                                              Assistant Inspector General for
                                                                Healthcare Inspections


VA Office of Inspector General                                                                          i
     Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL


                                                   Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections (OHI)
conducted an inspection in response to the unexpected death of a patient in the
substance abuse residential rehabilitation treatment program (SARRTP) at the Miami
VA Medical Center (facility), part of the Miami VA Healthcare System (system). The VA
OIG Criminal Investigations Division (CID) referred this patient death for OHI review to
evaluate if the SARRTP provided a safe environment for patients in accordance with
VHA requirements.

                                               Background 

Residential Rehabilitation Treatment Programs (RRTPs). In 1995, VHA established
the residential rehabilitation treatment program (RRTP) level of care for patients with
mental illness and/or addictive disorders who do not warrant acute psychiatric inpatient
admission but require additional structure and support to address multiple and severe
psychosocial deficits.1 RRTPs vary in purposes and types. Examples include:

    	 SARRTP for patients requiring treatment for alcohol and substance use disorders

    	 Post-Traumatic Stress Disorder (PTSD) RRTP for patients requiring an intensive
       therapeutic environment for PTSD treatment

    	 Psychosocial RRTP (PRRTP) for patients requiring a residential program to
       address a variety of issues, including mental health, homelessness, and
       unemployment

Generally, patients admitted to RRTPs must be capable of self-care.2 Some RRTP
patients may be dependent on staff for medication administration, while others are
either semi-independent or independent in medication administration. Patients are
allowed to leave the RRTP unit on a pass,3 including overnight and weekend hours, to
make aftercare plans and practice recovery skills in unstructured settings prior to
program discharge. Without a pass, patients may be permitted to leave the unit for
short periods of time.4 Because program staff members are not in the patient rooms on
a continual basis to assist patients or provide medications, and patients are allowed
some freedom to leave the unit, VHA developed guidelines for monitoring and tracking
the whereabouts of patients in RRTPs.5

Individualized interdisciplinary treatment plans are developed based on the needs of the
patient and emphasize personal responsibility, with overall goals to improve medical,

1
  VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program, December 22, 2010. 

2
  Self-care includes the ability to perform activities of daily living such as grooming, bathing, dressing, and eating. 

3
  A pass is an approved absence from the unit for a specified time. Passes can range from a few hours to 3 days. 

4
  At this facility, patients were allowed to leave the unit without a pass for up to 2 hours but were required to sign in

and sign out. 

5
  VHA Handbook 1162.02. 





VA Office of Inspector General                                                                                          1
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL


psychological, and social functioning, and re-integrate the patient successfully back into
the community. Patients who relapse while in a SARRTP are not automatically
discharged, as relapse may be viewed as a symptom that the patient needs further
treatment.

Miami VA Healthcare System. The system is part of Veterans Integrated Service
Network (VISN) 8, also known as the VA Sunshine Healthcare Network. It provides
acute medical and surgical care, as well as a full range of primary, specialty, and
subspecialty services throughout southeastern Florida. The facility has three types of
MH RRTPs:

       SARRTP: 24 beds

       PTSD RRTP: 16 beds

       PRRTP: 18 beds

The facility’s RRTPs are located in three units on the fifth floor of the main hospital
building. Each program occupies a separate wing with its own entrances and exits.
Staff in one RRTP unit cannot view or hear what is happening in the other RRTP units.

                             Scope and Methodology 

We conducted a site visit on September 4–6, 2013. We interviewed clinical staff
involved in the treatment of SARRTP patients and other clinical and administrative staff
knowledgeable about RRTP operations. We toured the SARRTP and PRRTP units.
We reviewed autopsy results for the subject patient as well as evidence collected by the
OIG CID.

We reviewed VHA and local policies, clinical guidelines, Quality Management
documents, program reviews completed by external consultants, Northeast Program
Evaluation Center (NEPEC) data,6 and the electronic health records (EHRs) of
22 patients.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




6
 NEPEC is part of VHA’s Mental Health Service and performs program evaluations of RRTPS and other mental
health services across VHA.




VA Office of Inspector General                                                                             2
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL



                                    Inspection Results 

Case Summary

The patient was an Operation Enduring Freedom (Afghanistan) combat veteran in his
twenties, who was diagnosed with polysubstance dependence, PTSD, sleep apnea,
mood disorder, and traumatic brain injury. In 2012, he was referred to the facility’s
PRRTP from another VISN 8 VA Medical Center “with the ultimate goal of proceeding
into PTSD residential treatment once he improves coping skills, mood stability, and
functioning.” He was admitted to the PRRTP later that year.

While in the PRRTP, the patient was periodically tested for illicit substance use. He had
four positive urine drug screen (UDS) results for amphetamines7 within 2 months of
entering the program; however, the patient was prescribed one or more medications
that could have caused false positive results.8 The patient agreed to undergo a
breathalyzer9 test that was positive in late 2012. One week later, PRRTP staff
documented suspicions that the patient had been consuming alcohol, but he refused to
take the breathalyzer test.

In early 2013, he was transferred from the PRRTP to the PTSD RRTP.

A UDS approximately 1 month following the transfer was positive for cocaine. Staff
addressed the results with the patient and informed him that substance abuse would not
be tolerated.

The following month, the patient tested positive for cocaine and alcohol, was discharged
from the PTSD RRTP, and was transferred to the acute inpatient mental health unit at
the facility. Several days later, after detoxification, he was transferred to the SARRTP
for further treatment.

Upon admission to the SARRTP, UDS results were negative for illicit substances. Two
days later, UDS results were positive for cocaine. The SARRTP psychiatrist addressed
the results with the patient. The patient admitted that he used cocaine after admission
to the SARRTP. He had left the unit to pick up money that had been wired to him and
used the funds to purchase cocaine. He was placed on pass restriction (no overnight or
weekend passes) for 3 weeks. However, he was permitted to leave the unit for up to
2 hours without a pass.

UDS results from the next month were again positive for cocaine. The SARRTP
psychologist addressed this with the patient and he was placed back on pass restriction
for another three weeks.


7
  Amphetamines are a class of drugs that are stimulants to the central nervous system. 

8
  Laboratory equipment manual Roche Diagnostics On Line DAT Cross-Reactivity Booklet Version 1.1.

9
  A breathalyzer is a device that estimates blood alcohol content using a breath sample. 





VA Office of Inspector General                                                                         3
       Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL



The day before his death, the patient left the SARRTP on a pass in the early afternoon.
Upon his return that evening, a breathalyzer test was completed with negative results
(no alcohol detected). A staff nurse documented at that time, “bag(s) checked: no.”
SARRTP patients who were interviewed by CID agents reported that while on the
SARRTP that evening, the patient was intoxicated from illicit drugs and required
assistance to get into bed.

The patient was found dead in his room on the SARRTP unit the next morning. The
medical examiner determined that the official cause of death was acute cocaine and
heroin toxicity.

Issue 1: Patient Monitoring and Supervision

We found multiple lapses in SARRTP security safeguards required by VHA and local
policy.

Inoperable Surveillance Camera. We found that camera surveillance was not present
as required. VHA policy requires that RRTP unit entrance doors be monitored by
Closed Circuit Television (CCTV). Additionally, CCTV with recording capability must be
used to monitor RRTP public areas such as hallways.10 Local policy mandates that
closed circuit video cameras be focused on each MHRRTP entrance and hallway and
viewed and recorded in Police Service. The recordings are to be kept for at least
2 weeks.

We met with Police Service staff to review the surveillance conducted on the SARRTP
unit. A Police Service employee was unable to correctly identify which screen was
showing feed from the SARRTP. We were subsequently told by the Chief of Police that
the camera which monitors the main hallway on the SARRTP unit had been inoperable
since at least December 2012. The Police Service employee who was monitoring the
CCTV feeds at the time of our visit was unaware the SARRTP camera was inoperable.
Similarly, key SARRTP staff were unaware that the camera was inoperable, including
the Nurse Manager.

VA Handbook 0730 requires that when surveillance television systems are in use,
performance checks be conducted daily and substitute coverage be provided during
maintenance or breakdown periods.11 We found no evidence that the facility provided
substitute coverage or other means of securing the unit during camera failure.

Unit Access. We found that access to the SARRTP was not monitored or controlled
appropriately. Access to the SARRTP unit is controlled by a keyless entry badge-
activated system. Individuals without a badge ring a buzzer and request entrance.
Local policy states that only authorized patients, staff, and visitors may be allowed
access to the unit.


10
     VHA Handbook 1162.02. 

11
     VA Handbook 0730, Security and Law Enforcement, August 11, 2000. 





VA Office of Inspector General                                                                            4
       Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL



At the time of our inspection, we visited the SARRTP unit twice unannounced.
SARRTP staff did not request identification or verify the purpose of the visit on either
occasion. During a day shift visit, an OIG inspector was “buzzed in” without displaying a
badge or credentials or explaining the reason for the visit; the inspector walked through
the unit and after several minutes, approached unit staff to identify himself. During the
evening shift, three inspectors, dressed in casual clothes and not wearing badges,
followed two patients into the unit without SARRTP staff’s knowledge of an
unauthorized entry.

During staff interviews, we learned that SARRTP staff on evening, night, and weekend
tours routinely sit in a back room that does not have visibility of most of the main
hallway of the unit, nor the entrance and exit doors. During our evening site visit, we
found the staff in this back room. Had the staff been present at the nurses’ station, they
would have been able to observe and monitor the main hallway and entrance and exit
doors.

Patient Sign-In/Sign-Out. We found that patients’ whereabouts were not being
monitored as required. VHA requires that RRTP programs have a system for tracking
the whereabouts of patients, typically by maintaining a sign-in and sign-out list.12 Local
policy states that patients can sign themselves off the unit for up to 2 hours without a
pass but must include their destination, remain on campus, and sign back in upon return
so that their whereabouts are always known to staff. We found that the sign in/sign out
list on the SARRTP unit was not being reviewed by staff for suspicious activity (patterns
of leaving the unit) and that patients did not consistently sign in/sign out. The sign
in/sign out entries that we observed did not include dates.

Contraband Searches. We found a lack of consistency among staff in performing
contraband searches. According to local policy, nursing staff will conduct and document
inspections of all patients being admitted to the program and returning from pass in
order to detect any possible contraband that could be brought onto the unit. We
interviewed staff to determine how contraband searches were conducted upon a
patient’s return from pass and received conflicting information. Several staff reported
that they were not permitted to search patients’ pockets or to request patients to empty
their pockets as this was equivalent to a body search and not allowed. However, the
RRTP Program Manager told us that he expected pockets to be emptied as part of a
routine contraband search.

We also found that the EHR template progress note used to document whether bags
had been searched upon a patient’s return from pass was unclear. A line item in a note
stated “bag(s) checked: no." We could not determine from the “no” documentation if
there were no bags to check or that bags were not searched.




12
     VHA Handbook 1162.02.




VA Office of Inspector General                                                                            5
       Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL



Issue 2: Staff Presence

We found that staff were not always physically present on the SARRTP unit as required.
Both VHA13 and local policy require that a staff person be physically present on each
RRTP unit when there is more than one unit on a floor and there are physical barriers
between the units.

Staff leave the SARRTP unit for a variety of reasons. During evening, night, and
weekend tours, one staff member is assigned to the unit. If that staff member leaves,
the patients on the unit are unsupervised. Three times each day, RRTP staff go with
patients to the dining room for meals, located one floor below in the same building.
RRTP staff stay in the dining hall until all patients have finished eating. However,
patients who opt not to go to the dining hall, or return to the unit after eating, are
unsupervised when the only SARRTP staff member on duty is in the dining hall.

Staff from either the PTSD RRTP or the PRRTP may cover the SARRTP unit when the
single SARRTP staff member on duty must leave the unit. However, the other RRTP
units are also typically staffed with one staff member on evenings, nights, and
weekends; therefore, providing coverage for the SARRTP staff would result in a lack of
supervision of patients on the PTSD RRTP or the PRRTP unit.

Issue 3: Substance Use Among SARRTP Participants

The facility is located in a part of Miami with reported high drug activity. Patients who
are allowed to leave the unit unsupervised have potentially easy access to illicit drugs.
We reviewed the EHRs of other patients in the SARRTP at the time of the patient’s
death to determine the extent of illicit drug use among patients. In addition to the
patient under review, we found that 7 of 21 patients had a positive UDS and/or
breathalyzer test at some point in their substance abuse program stay. Five additional
patients had a positive UDS but were not included in the 33 percent positive result
category, as either the UDS was completed at admission and positive results could
have been from drug use prior to admission or patients were prescribed medications
that are associated with a false positive result.

We found that the methods used for monitoring SARRTP patients for illicit drug use
could be strengthened. UDS were collected every Sunday in the late afternoon or early
evening. Staff told us they were consistent with the time of day and day of the week for
collections. As the timing of the collection was predictable, patients were aware of
when the UDS would be done and could modify their behavior accordingly. Some
random UDS were collected during the week, but staff told us this tended to be on the
same days of the week, so the pattern of collection times was again fairly predictable.

According to the substance abuse recovery model the SARRTP follows, patients who
relapse during treatment are not automatically discharged, since recovering from

13
     VHA Handbook 1162.02.




VA Office of Inspector General                                                                            6
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL



relapse in a structured environment is important for learning how to deal with challenges
when not in a structured environment. Relapses were addressed by the treatment team
and resulted in a minimum of a 3 week suspension of passes from the unit. We found
that while pass suspensions generally did occur, one of the seven patients we reviewed
who had a positive UDS or breathalyzer while in treatment, was granted a pass 6 days
after the team documented he would be suspended from passes for 4 weeks.

                                       Conclusions 

We reviewed an unexpected patient death in the facility’s SARRTP unit. SARRTPs
should provide a safe recovery environment for the treatment of patients with substance
use disorders who require a controlled and sober environment. We found this patient
died due to cocaine and heroin toxicity. We found that the SARRTP unit at the facility
did not consistently follow VHA policies that help establish a safe and secure
environment.

We found that the SARRTP surveillance camera was inoperable and that access to the
SARRTP was not monitored or controlled appropriately, patient whereabouts were not
monitored as required, and confusion among staff existed concerning appropriate
contraband searches. We also found that staff presence on the SARRTP unit was not
maintained as required.

We identified opportunities to strengthen the supervision of patients in the SARRTP
program to include ensuring that the surveillance camera is repaired and maintained
and that staff are visibly present on the unit at all times. We also found that contraband
search procedures and documentation could be improved.

                                 Recommendations 

1. We recommended that the System Director ensure that the camera surveillance
system is repaired and maintained and that surveillance is conducted as required on the
SARRTP unit.

2. We recommended that the System Director ensure that the SARRTP unit is
appropriately staffed at all times, as required by VHA and local policy.

3. We recommended that the System Director ensure that SARRTP staff implement a
consistent and comprehensive approach to check patients returning to the unit for
contraband and document results clearly.

4. We recommended that the System Director ensure that SARRTP staff more
aggressively monitor patients for illicit drug use, to include increasing the use of random
UDS and adhering to local and VHA policy when patients leave the unit.




VA Office of Inspector General                                                                         7
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL
                                                                                            Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                        Memorandum




   Date:       March 10, 2014

   From:       Director, VA Sunshine Healthcare Network (10N8)

   Subject: Healthcare Inspection – Unexpected Patient Death in a
            Substance Abuse Residential Rehabilitation Treatment
            Program, Miami VA Healthcare System, Miami, FL

   To:         Director, Bay Pines Office of Healthcare Inspections (54SP)

               Director, Management Review Service (VHA 10AR MRS OIG
               Hotline)

               I have reviewed and concur with the findings and recommendations
               in this report.

               Corrective action plans have been established with planned
               completion dates, as detailed in the attached report.



               (original signed by:)

               Joleen Clark, MBA, FACHE




VA Office of Inspector General                                                                         8
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL
                                                                                            Appendix B
                         System Director Comments


               Department of
               Veterans Affairs                                        Memorandum


   Date:       March 7, 2014

   From:       Director, Miami VA Healthcare System (546/00)

   Subject: Healthcare Inspection – Unexpected Patient Death in a
            Substance Abuse Residential Rehabilitation Treatment
            Program, Miami VA Healthcare System, Miami, FL

       To:     Director, VA Sunshine Healthcare Network (10N8)

               Enclosed you will find the Miami VA Healthcare System’s
               response to the Healthcare Inspection of Quality of Care
               issues performed by the Office of Inspector General.



               (original signed by:)

               Paul M. Russo, MHSA, FACHE, RD 

               Director 





VA Office of Inspector General                                                                         9
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL



                         Comments to OIG’s Report



The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the System Director ensure that the
camera surveillance system is repaired and maintained and that surveillance is
conducted as required on the SARRTP unit.

Concur

Target date for completion:         Full completion by August 1, 2014; some actions are
completed.

Facility response: The FY13 MHRRTP Annual Safety and Security Assessment noted
that video cameras were installed but the monitors and recording equipment were not
working. An action plan to remedy this was accepted by VACO. The Medical Center
Director approved upgrades and enhancements to the facility wide system in April 2013.
Police Service submitted a modernization and enhanced functionality contract for our
facility wide camera and monitoring surveillance system in April 2013. Procurement
solicitation was completed on January 24, 2014. The estimated start date of the facility
wide surveillance system upgrade and enhancements is May 1, 2014. The target
completion date for this project is August 1, 2014.

The cameras currently located on the SARRTP were assessed to determine if they
could be repaired for use until an upgraded system was in place. The existing cameras
were repaired and are functioning properly which includes monitoring capability as of
February 2, 2014. While the systems were not functioning properly, in accordance with
VA Handbook 0730 and VHA Handbook 1162.02, police and nursing staff had
mechanisms in place including increased checks, and the use of sitters to monitor the
area.

The unit remains in full compliance with the requirement for single point access onto the
unit utilizing keyless entry. As of January 24, 2014 the following actions have been
completed: MH RRTP staff reminded Veterans to sign in and out in the log books when
leaving and returning to the units. Veterans have also been reminded to complete all of
the required fields. MHRRTP staff began checking the log books during the 2 hour
rounds to ensure the Veterans whereabouts are documented. By February 3, 2014, the
rounding sheets were revised to include staff checking the log book, a place to
document any variance between round results and log book, and a place to document
any missing information from log book. By May 7, 2014, the SARRTP Nurse Manager
will monitor documentation of patient observation rounds, and the log book sign in/out
process for 90 days to ensure any discrepancies in the log book are addressed.


VA Office of Inspector General                                                                        10
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL



Recommendation 2. We recommended that the System Director ensure that the
SARRTP unit is appropriately staffed at all times, as required by VHA and local policy.

Concur

Target date for completion: Actions completed January 24, 2014; will monitor for
compliance through May 7, 2014.

Facility response: As of January 24, 2014, MHRRTP staffing schedules and coverage
have been adjusted to ensure that there is one staff member on each unit at all times.
Nursing Staffing Sheets will be monitored for 90 days. Compliance will be reported
monthly to the Performance Improvement Sub-Committee and appropriate corrective
action will be taken.

Recommendation 3. We recommended that the System Director ensure that SARRTP
staff implement a consistent and comprehensive approach to check patients returning to
the unit for contraband and document results clearly.

Concur

Target date for completion: Actions completed January 29, 2014; will monitor for
compliance through May 18, 2014.

Facility response: Procedures were revised for checking and documenting Veterans’
and Visitors’ belongings upon returning from pass, to include search of pockets. The
medical record template for checking and documenting inspection of Veterans’ and
Visitors’ belongings upon return from pass was revised to clearly reflect that Veteran
and Visitor belongings, to include pockets, have been checked. The template was
updated to include the outcome of the inspections. Staff have been trained on the use
of the new template and how to conduct inspections. Monitoring of staff compliance will
occur by reviewing documentation in CPRS for 90 days. Compliance will be reported
monthly to the Performance Improvement Sub-Committee and appropriate corrective
action will be taken.

Recommendation 4. We recommended that the System Director ensure that SARRTP
staff more aggressively monitor patients for illicit drug use, to include increasing the use
of random UDS and adhering to local and VHA policy when patients leave the unit.

Concur

Target date for completion: Completed on January 24, 2014; will monitor for compliance
through May 7, 2014.

Facility response: SARRTP psychiatrists have increased frequency and variety of
timing of collection of Urine Drug Screens. For Veterans with a history of substance
abuse, at least one UDS will be collected upon return from any weekend pass, and at
least one additional screen will be collected during the week at a random time.
Additional screens will be monitored for administration and for variety as to day of week


VA Office of Inspector General                                                                        11
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL



collected for 90 days. Compliance will be reported monthly to the Performance
Improvement Sub-committee and appropriate corrective action will be taken.




VA Office of Inspector General                                                                        12
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL
                                                                                            Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Karen McGoff-Yost, MSW, LCSW, Team Leader
                         Charles Cook, MHA 

                         Robert Yang, MD





VA Office of Inspector General                                                                        13
    Unexpected Patient Death in a Substance Abuse Residential Rehabilitation Treatment Program, Miami, FL
                                                                                            Appendix D



                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Sunshine Healthcare Network (10N8)
Director, Miami VA Healthcare System (546/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Bill Nelson, Marco Rubio
U.S. House of Representatives: Ted Deutch, Mario Diaz-Balart, Lois Frankel, Joe
Garcia, Alcee L. Hastings, Ileana Ros-Lehtinen, Debbie Wasserman Schultz, Frederica
Wilson



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                        14
